APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, Court of Appeals of Indiana,
Warsaw Orthopedic, Inc. v. Sasso,
No. 19A-PL-378 (Dec. 4, 2020) .................... App-1
Appendix B
Order, Court of Appeals of Indiana,
Warsaw Orthopedic, Inc. v. Sasso,
No. 19A-PL-378 (Jan. 26, 2021) ................ App-48
Appendix C
Order
Denying
Transfer,
Indiana
Supreme Court, Warsaw Orthopedic, Inc.
v. Sasso, No. 19A-PL-378 (May 13, 2021). App-50
Appendix D
Judgment, Indiana Marshall Circuit
Court, No. 50C01-1806-PL-27 (Nov. 29,
2018)........................................................... App-52
Appendix E
Relevant Statutes ...................................... App-54
28 U.S.C. §1338(a) ................................. App-54
28 U.S.C. §1295(a)(1) ............................. App-54

App-1
Appendix A
COURT OF APPEALS OF INDIANA
________________
No. 19A-PL-378
________________
WARSAW ORTHOPEDIC, INC., et al.,
v.

Appellants/CrossAppellees-Defendants,

RICK C. SASSO, M.D.,
Appellee/CrossAppellant-Plaintiff.
________________
OPINION
________________
Filed: December 4, 2020
________________
Before: Bradford, C.J,, Najam, Mathias, JJ.
________________
MATHIAS, J.:
Following a fifteen-day jury trial in Marshall
Circuit Court, the court entered judgment on the jury’s
verdicts in favor of Rick C. Sasso, M.D. (“Sasso”) in the
amount of $112,452,269 on Sasso’s complaint for
breach of two contracts—the Screw Agreement and
the Vertex Agreement—against Medtronic, Inc.,
Medtronic Sofamor Danek, Inc., and Warsaw
Orthopedic, Inc. (collectively “Medtronic”). Medtronic

App-2
appeals and presents several issues for our review,
which we restate and reorder as the following six:
I. Whether the trial court erred by denying
Medtronic’s motion to dismiss because
Sasso’s claims arise under patent law, which
is within the exclusive jurisdiction of the
federal courts;
II. Whether the trial court erred by rejecting
Medtronic’s argument that it was entitled to
judgment as a matter of law on the Screw
Agreement;
III. Whether the trial court abused its
discretion by excluding evidence that some of
the claims under one of the patents at issue
were declared invalid;
IV. Whether the trial court erred by rejecting
Medtronic’s claim that the Screw Agreement
terminated after seven years;
V. Whether there is sufficient evidence
supporting the jury’s award of damages for
breach of the Screw Agreement; and
VI. Whether there is sufficient evidence
supporting the jury’s award of damages for breach
of the Vertex Agreement.
Sasso cross-appeals and presents one issue:
whether the trial court erred by granting summary
judgment in favor of Medtronic on Sasso’s claim for
punitive damages.

App-3
We affirm the judgment of the trial court in all
respects. 1
STATEMENT OF FACTS
A. The Parties
Sasso is a native Hoosier who graduated from the
Indiana University School of Medicine in 1986. He has
since become a renowned spinal surgeon and is a
professor and chief of spinal surgery at the Indiana
University School of Medicine.
Medtronic 2 sells products for use in spinal
surgery. In developing such products, Medtronic often
collaborates with spinal surgeons. If a physician
invents a surgical product, Medtronic typically enters
into an agreement in which the physician assigns
patent rights to Medtronic in exchange for royalties
for the life of the patent. This case involves two such
agreements between Medtronic and Sasso: an
agreement involving a screw delivery system (the
“Screw Agreement”) and an agreement involving a
posterior cervical fixation system known as Vertex
(the “Vertex Agreement”).

We heard oral argument remotely on October 27. 2020. We
thank counsel for their well-prepared oral advocacy.
1

As noted in an earlier appeal involving the same parties: “The
three defendants are corporate affiliates of each other. [Sofamor
Danek] merged with Medtronic, Inc. in 1999, and Warsaw
Orthopedic, Inc., merged with [Sofamor Danek] in 2006.” Sasso
v. Warsaw Orthopedic, Inc., 45 N.E.3d 835, 836 n.2 (Ind. Ct. App.
2015), trans. denied. We refer to all of these corporate entities as
“Medtronic.”
2

App-4
B. The Screw Agreement
Early in his practice, Sasso devised a new
technique for spinal surgery that minimized incisions
by using a tube to guide surgical implements and
instruments. The innovative aspect of Sasso’s
technique was the use of a separate outer tube, known
as a cannula, to implant the surgical devices. Without
using Sasso’s cannula technique, surgeons were
required to use guidewires, which presented a host of
problems such as breakage, piercing of other body
parts, and the serial usage of x-rays.
In the mid 1990s, Sasso spoke with Medtronic’s
president about his minimally invasive surgery
technique. In the spring of 1999, the parties signed a
non-disclosure agreement to discuss the innovative
screw delivery system. And in the fall of that year,
Medtronic held a meeting with Sasso to discuss the
innovation. On November 1, 1999, the parties entered
into a purchase agreement for a Sasso-invented screw
delivery system using headless facet 3 screws, whereby
Medtronic would pay a 5% royalty to Sasso on sales if
the medical devices sold were covered by a valid claim
of an issued patent.
This agreement was soon superseded by the
“Screw Agreement.” Section 4(B) of the agreement,
which is governed by Tennessee law, provided that
Facets are the joints between vertebrae. Tr. Vol. 2, pp. 58-59.
See also Facet Joint Syndrome, Cedars-Sinai Health Library,
https://www.cedars-sinai.org/health-library/diseases-andconditions/f/facet-joint-syndrome.html [https://perma.cc/LA8LPR5D] (“The facet joints are the connections between the bones
of the spine.”). During spinal surgery, facets are often fused
together using screws.
3

App-5
Medtronic would pay Sasso for the rights to the
Invention4 and the Intellectual Property Rights 5 an
amount as follows:
A contingency payment in the amount of two
and one-half percent (2-½%) of the worldwide
Net Sales of the Medical Device 6 .… The
contingency payment is payable to Dr. Sasso
until expiration of the last to expire of the
patent(s) included in the Intellectual
Property Rights, or seven (7) years from the
Date of First Sale of the Medical Device, if no
patent(s) issue .…

The agreement defined “Invention” as “any product, method
or system relating to a facet screw instrumentation and a
headless facet screw fixation system as described in Schedule A,
attached hereto.” Ex. Vol. 14, p. 17. Schedule A, under the
heading “Invention,” stated: “Facet Screw Instrumentation and a
Headless Facet Screw Fixation System consisting of bone screws
and associated instruments for installation thereof.” Id. at 25.
4

The agreement defined “Intellectual Property Rights” as “any
patent and/or patent application, improvement, modification,
enhancement, any and all know-how and technology, and any
other intellectual property right with respect to the Invention.”
Id. at 18.
5

The agreement defined “Medical Device” as “any device,
article, system, apparatus or product including the Invention,”
and was to be listed by catalog numbers in Schedule B. Id. The
agreement also provided that “Schedule B may be updated from
time to time by mutual written agreement of the parties hereto
to include the appropriate [Medtronic] catalog numbers and
descriptions of any Medical Device(s) which utilize the
Invention.” Id. Schedule B, under the heading “Medical Device
Catalog Numbers,” listed “Facet Screw Instrumentation, and A
Headless Facet Screw Fixation System.” Id. at 26.
6

App-6
Ex. Vol. 14, pp. 19-20. Thus, the royalty rate was
lowered from 5% to 2.5%, but it was no longer
contingent on the Medical Device being covered by a
valid claim of an issued patent.
Section 7, titled “Term of Agreement,” described
the duration of the agreement as follows:
Unless sooner terminated, this Agreement
shall expire upon the last to expire of the
patents included in Intellectual Property
Rights, or if no patent application(s) issue into
a patent having valid claim coverage of the
Medical Device, then seven (7) years from the
Date of First Sale of the Medical Device.
[Medtronic]
is
free
to
continue
manufacturing, marketing and selling
Medical Device(s) after expiration of this
Agreement without further payment to Dr.
Sasso.
Id. at 21 (emphasis added).
Before the parties executed the Screw Agreement,
Sasso prepared a patent application covering his
screw delivery system. He then assigned the
application to Medtronic upon signing the agreement.
On November 23, 1999, Medtronic filed a patent
application entitled “Screw Delivery System and
Method” naming Sasso as the sole inventor and
Medtronic as the assignee. 7
Based on this application, the United States
Patent and Trademark Office (“USPTO”) issued
Patent No. 6,287,313 (“the ‘313 Patent”) to Medtronic
7 The patent listed one of Medtronic’s predecessor’s in interest,
SDGI Holdings, Inc., as the assignee.

App-7
on September 11, 2001. The claims of the ‘313 Patent,
which define the legal scope of the invention subject to
the patent, included several numbered claims. For
example, claim 26 identified:
A screw delivery system kit for providing a
minimally invasive portal to a surgical site
comprising:
an outer cannula;
a trocar;
means for drilling an opening in a bone at the
surgical site;
means for aiming said means of drilling; and
means for screwing a screw into the opening
in the bone.
Id. at 146. Claim 34 was derivative of claim 26 and
was defined as “[t]he kit of claim 26, further
comprising at least one interbody fusion implant.” Id.
Days after filing the patent application,
Medtronic held a meeting with Sasso to work on
commercial application of the screw delivery system.
Following this meeting, Medtronic sent Sasso a letter
that included next steps for incorporating his
“technology into the system” and indicated a desire for
“future development of this instrumentation system
with you.” Ex. Vol. 15, p. 28. Medtronic attached to
this letter “Recap Notes” that included five “Primary
Applications” for the screw delivery system:
(1) Precision-Graft; (2) Anterior Cages (2 level);
(3) Anterior Cages (1 level); (4) Far lateral placements
(including ELIF); and (5) Revision. Id. at 29. Thus, the
applications of Sasso’s system went beyond the scope

App-8
of mere facet screws to also include interbody implants
such as anterior cages.
Sasso consistently believed that that interbody
implants, such as cages, were included in his system
and were therefore royalty bearing. Medtronic’s
president assured Sasso, in January 2002, that “at the
end of the day, your royalty stream is limited only by
our collective sales and marketing efforts. With our
recent FDA panel recommendation for InFUSE
approval, the projections below may be magnified.” Id.
at 91-92. InFUSE is a bone-growth compound used
inside cages implanted inside vertebral bodies. In
other words, Medtronic believed that Sasso’s royalties
included sales based on InFUSE, which did not
incorporate facet screws.
In 2003, Medtronic invited Sasso to join a team of
experts working on navigated surgery. Medtronic’s
navigated-surgery team developed leading systems,
including two that were first sold to the Indianapolis
hospital where Sasso works. The team also worked on
a guidewire-less spinal surgery procedure. When
Medtronic introduced this system, its presentation
included Sasso’s screw delivery system. And in 2010,
Medtronic’s navigation catalog listed instruments
used in Sasso’s system under items used for navigated
spinal surgery.
The Screw Agreement provided that the parties
would update Schedule B—which listed the royaltybearing Medical Devices—from time to time to include
the appropriate Medtronic catalog numbers and
descriptions of any devices that utilized Sasso’s
invention. Although the parties never updated
Schedule B, Medtronic paid royalties to Sasso for

App-9
unlisted devices, including payment for “cortical bone
screws” from 2003 through 2015. Tr. Vol. 11, pp. 3132.
In 2008, Sasso complained to Medtronic that he
was not being paid royalties on all Medtronic products
that used his screw delivery system. In an attempt to
rectify the situation, he met with Medtronic’s chief
medical officer. But in 2010, when Doug King became
Medtronic’s
division
president,
the
parties’
relationship soured. And two years later, Medtronic’s
counsel told Sasso to make no further contact with
Medtronic employees.
C. The Vertex Agreement
The parties also entered into an agreement
involving a system known as Vertex. In the 1990s,
spinal surgeons often had difficulty properly
anchoring and aligning screws and plates in the
cervical spine during surgery. As a result, treatment
of
spinal
deformities
regularly
required
immobilization and long recovery times. In 1998,
Sasso worked with Medtronic to develop a posterior
spinal rod system. This project subsequently merged
with a preexisting project known as the Vertex project.
The resulting Vertex system solved the problem of
anchoring and alignment by using polyaxial screws
and offset pieces to connect stabilizing rods in the
spine. Screws no longer had to be perfectly aligned,
thereby giving more flexibility to the surgeons
installing them.
In 1999, the parties entered into the Vertex
Agreement. Section 4(B) of the agreement provided:

App-10
[Medtronic] shall pay to DR. SASSO for the
ownership rights to the Invention8 and all
Intellectual Property Rights 9 relating thereto
an amount as follows:
A royalty payment in the amount of two
percent (2%) of the Net Sales of the Medical
Device 10 for a period of eight (8) years from
8

The agreement defined “Invention” as
a posterior cervical rod system utilizing multi-axial
screws as described in the Intellectual Property Rights
and including any know-how, and/or technical
information relating [to] the posterior cervical rod
system in the possession of DR. SASSO, or hereinafter
developed by DR. SASSO in the course of his providing
services to [Medtronic] pursuant to Section 6 of this
Agreement.

Ex. Vol. 14, pp. 4-5.
9

The agreement defined “Intellectual Property Rights” as
U.S. patent application entitled “Posterior Cervical
Fixation System Utilizing Multi-axial Screws”, (USSN
09/663,638) filed on September 15, 2000, naming DR.
SASSO as a co-inventor, and including any and all U.S.
and International patents issuing therefrom or
claiming priority thereto, and any and all
continuations,
continuation-in-part,
divisionals,
reissues or reexaminations based thereon or claiming
priority thereto, and any and all know-how, technology
and any other intellectual property right with respect
to the Invention. A listing of all Intellectual Property
Rights is contained in Exhibit A which will be updated
by [Medtronic] from time to time (at least yearly) as
additional Intellectual Property Rights are added to
the Agreement.

Id. at 5.
10

The agreement defined “Medical Device” as

App-11
the date of the first commercial sale of the
Medical Device(s). However, if the Medical
Device is covered by a valid claim of an issued
U.S. patent arising out of the Intellectual
Property Rights, then the royalty payment
specified above will be payable for the life of
the patent .…
Ex. Vol. 14, p. 7.
Section 6 of the agreement required Sasso to
provide his technical expertise and knowledge in
developing and improving Vertex:
In order to fully effect the assignment
provided for under this Agreement, DR.
SASSO shall provide his technical skills and
services to [Medtronic] in connection with the
ongoing development and clinical evaluations
of the Medical Devices, including any
advancements,
improvements
and/or
modifications of the Invention and Medical
Devices. To the extent DR. SASSO’s other
business and medical practice commitments
permit, DR. SASSO shall make himself
the posterior cervical rod system (to be commercially
sold under the trademark “Vertex Reconstruction
System”) incorporating the Invention and Intellectual
Property Rights as developed, manufactured and sold
by [Medtronic] pursuant to this Agreement. Medical
Devices are listed by catalog number in Exhibit B,
attached hereto. Exhibit B may be amended
periodically by [Medtronic] with written notification to
DR. SASSO to update the various components of the
Medical Device included in the Invention.
Id.

App-12
available to provide such services from time
to time as reasonably requested by
[Medtronic]. [Medtronic] shall reimburse DR.
SASSO for reasonable expenses of travel,
lodging, daily meals and other necessary and
reasonable expenses incurred by him in the
performance of the services described in this
Section 6, provided that such expenses are
supported by original receipts and other
supporting documentation and that DR.
SASSO obtains prior authorization of
[Medtronic] prior to incurring any such
expenses.
Id. at 8. The Vertex Agreement, like the Screw
Agreement, is governed by Tennessee law.
On November 26, 2002, Patent No. 6,485,491 (“the
‘491 Patent”) issued—covering the Vertex system—
naming Sasso among its inventors and Medtronic as
the assignee. Soon after Vertex was released as a
product, there were several concerns that needed to be
addressed. To rectify the concerns and improve the
Vertex system, Sasso contributed ideas and know-how
to two other patents (“the ‘621 Patent” 11 and “the ‘714
Patent”). Because the ‘621 and ‘714 Patents were
based on Sasso’s contributions to the Vertex system,
Sasso interpreted the Vertex Agreement to mean that
he would also receive life-of-patent royalties from
products covered by these patents.
Medtronic used a code to account for royalties due
on Vertex products. Specifically, in 2001, it created
code 366 to identify Vertex parts. And when the
11

This patent incorporated by reference the entire ‘491 Patent.

App-13
agreement was signed, Exhibit B to the Vertex
Agreement listed seventy-seven parts. However,
Medtronic later added nearly 2,000 additional Vertex
royalty-bearing parts without adding them to Exhibit
B. Medtronic’s royalty cards, which summarized
quarterly Vertex sales, contained a notation of
“Expires 12/31/08,” which was consistent with the
agreement’s guaranteed term of eight years. Ex. Vol.
30, pp. 35-47. After the initial eight years, however,
the cards read “Patented 11/26/02” or “8 years after
commercial launch or life of patent,” or “Patented
11/26/02, Expires 11/26/19.” Id. at 48-74. Then, in
2013, Medtronic stopped paying Sasso royalties on the
Vertex products, claiming that that the previous
seventeen quarterly royalty payments were mistaken.
PROCEDURAL HISTORY
A. The Litigation
On August 29, 2013, Sasso and SEE, LLC—a
corporation that Sasso formed with family members to
manage Sasso’s intellectual property—filed suit
against Medtronic, alleging a breach of the Vertex
Agreement and another agreement not involved here.
Medtronic removed the case to federal court, alleging
exclusive federal jurisdiction under patent laws. The
United States District Court for the Northern District
of Indiana, however, remanded the case to state court
after determining that the case turned on Indiana
contract law, not federal patent law. 12 Sasso then

12 After remand, the Indiana trial court granted summary
judgment against SEE, a decision that a panel of this court
affirmed on appeal, Sasso, 45 N.E.3d at 836.

App-14
amended his complaint to allege a breach of the Screw
Agreement.
On October 3, 2016, Medtronic filed two motions:
(1) a motion to dismiss, arguing that all of Sasso’s
breach-of-contract claims depended upon issues of
patent law that are exclusively in the jurisdiction of
the federal courts; and (2) a motion for summary
judgment. The trial court denied both motions. On
March 27, 2017, Sasso filed an amended complaint,
again alleging that Medtronic had breached both the
Screw Agreement and the Vertex Agreement by
failing to pay him what he believed he was due under
the agreements. Sasso also added a claim for punitive
damages for bad-faith breach of the agreements.
Medtronic moved for summary judgment on this
claim, which the trial court granted.
B. The Patent Reexamination
While the litigation ensued, on May 1, 2018,
Medtronic filed with the USPTO a request for ex parte
reexamination of several claims of Sasso’s ‘313 Patent.
Medtronic argued that Sasso’s positions in the instant
lawsuit interpreted the claims of the ‘313 Patent so
broadly that it rendered the claims invalid. That is,
Medtronic asserted that the breadth of the claims—as
alleged by Sasso—meant that they were not novel as
required by federal patent law and were instead
obvious, thereby rendering them ineligible for patent
protection. On June 29, the USPTO issued an “Office
Action” rejecting claims 26, 30, 31, and 34 of the ‘313
Patent. But this action was not final. The USPTO
issued a final office action rejecting claims 26 and 34
on October 29, and it issued a Reexamination

App-15
Certificate cancelling claims 26 through 34 on
January 4, 2019—after the jury trial in this case.
Meanwhile, on July 2, 2018, Sasso filed a motion
for partial summary judgment on the term of the
Screw Agreement, arguing that the term was not
altered by the validity of any patent. In a related
motion, on August 14, Sasso moved to exclude any
evidence regarding the validity of the patents at issue
in the lawsuit. The trial court granted both of Sasso’s
motions on September 13—after the USPTO had
issued its initial office action, but before the final office
action.
C. The Federal
Action

Declaratory

Judgment

Also, during this time, on June 8, 2018, Medtronic
filed a complaint for declaratory judgment in the
United States District Court for the Northern District
of Indiana, seeking a declaration that it owed Sasso
nothing under the Screw Agreement. The District
Court denied this motion by order on January 31,
2019. See Warsaw Orthopedic, Inc. v. Sasso, No. 3:18CV-437 JD, 2019 WL 428574 at *4 (N.D. Ind. Jan. 31,
2019). In that order, the District Court assumed that
it had federal jurisdiction, but declined to exercise it
under the doctrine of abstention. Id.
Medtronic appealed the order to the United States
Court of Appeals for the Federal Circuit, which
recently issued its opinion. Warsaw Orthopedic v.
Sasso, 977 F.3d 1224 (Fed. Cir. 2020). In the Federal
Circuit, Sasso argued (as he does here) that there was
no federal jurisdiction. Importantly, for the case before
us, although the court rejected that claim and found it
had jurisdiction over the appeal, the Federal Circuit

App-16
affirmed the District Court’s decision to abstain. Id. at
1231-32.
D. The Trial
A fifteen-day jury trial began on November 1,
2018. Sasso called Michael Pellegrino to provide
expert testimony on damages under the Screw
Agreement. 13 Pellegrino testified that Sasso’s
damages under the Screw Agreement, at the 2.5%
contract rate, totaled $79,794,721. Medtronic’s
witness testified that Sasso’s damages were
considerably smaller. For the Vertex Agreement,
Sasso presented testimony from a CPA who calculated
damages in the amount of $32,657,548.
The jury began deliberating on November 28,
2019. During its deliberations, the jury asked if there
was any dispute regarding whether Sasso transferred
the ‘313 Patent as part of the Screw Agreement. The
parties agreed that the patent had been transferred,
and the trial court so informed the jury. Ultimately,
the jury rendered a verdict in Sasso’s favor, awarding
him damages of $112,452,269: $32,657,548 on the
Vertex Agreement and $79,794,721 on the Screw
Agreement. 14 The court then entered judgment
accordingly. Medtronic filed a motion to correct error
on December 28, 2018, which the trial court denied a
few weeks later.
Medtronic now appeals, and Sasso cross-appeals.
Medtronic moved to exclude Pellegrino’s expert opinions,
which the trial court denied.
13

14 The jury awarded no damages on Sasso’s alternative theory
of unjust enrichment and found against Medtronic on its
counterclaim of mistake.

App-17
I.

Subject Matter Jurisdiction

Although listed as Medtronic’s second argument,
the alleged lack of subject matter jurisdiction is a
threshold issue that we address first. 15 Medtronic
claims that the trial court lacked subject matter
jurisdiction because Sasso’s claims “arise under”
patent law, which is within the exclusive jurisdiction
of the federal courts. 28 U.S.C. §1338 (2011). The
controlling federal statute provides in relevant part:
(a) The district courts shall have original
jurisdiction of any civil action arising under
any Act of Congress relating to patents, plant
variety
protection,
copyrights
and
trademarks. No State court shall have
jurisdiction over any claim for relief arising
under any Act of Congress relating to patents,
plant variety protection, or copyrights.…
Id. (emphasis added).
Sasso claims that Medtronic’s claim on this issue is frivolous
because the Federal District Court for the Northern District of
Indiana remanded this case back to state court after Medtronic
removed it to federal court. “An order remanding a case to the
State court from which it was removed is not reviewable on
appeal or otherwise.” 28 U.S.C §1447(d). Sasso claims that
Medtronic seeks “review” of an unreviewable order. But
Medtronic is not seeking “review” in the appellate sense; it
merely asks us to disagree with the federal court. See Harr v.
Hayes, 106 N.E.3d 515, 528 (Ind. Ct. App. 2018) (holding that
appellant’s argument was not frivolous even though it conflicted
with federal district court’s remand order because appellant
sought review of Indiana trial court’s order, not the district
court’s order), corrected on reh’g, 108 N.E.3d 405. Moreover,
because the remand order was unappealable, it is not res
judicata. Warsaw Orthopedic, 2019 WL 428574 at *1 n.2.
15

App-18
As explained by the Supreme Court of the United
States:
One of the fundamental purposes behind the
Patent and Copyright Clauses of the
Constitution was to promote national
uniformity in the realm of intellectual
property. Since the Patent Act of 1800,
Congress has lodged exclusive jurisdiction of
actions “arising under” the patent laws in the
federal courts, thus allowing for the
development of a uniform body of law in
resolving the constant tension between
private right and public access.
Bonito Boats, Inc. v. Thunder Craft Boats, Inc., 489
U.S. 141, 162 (1989).
At first blush, 28 U.S.C. §1338 appears to
categorically deprive state of courts of jurisdiction over
any patent-related claim. But because “[a] suit arises
under the law that creates the cause of action,” Am.
Well Works Co., v. Layne & Bowler Co., 241 U.S. 257,
260 (1916), state courts will maintain jurisdiction over
a patent-related claim that “arises under” state law
unless the case falls within a “special and small
category,” Gunn v. Minton, 568 U.S. 251, 258 (2013).
More specifically, four conditions are required to
deprive state courts of jurisdiction over a patentrelated state-law claim: the claim must include a
federal issue that is (1) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of resolution
in federal court without disrupting the federal-state
balance approved by Congress. Id. (citing Grable &
Sons Metal Prods, Inc. v. Darue Eng’g & Mfg., 545 U.S.
308, 313-14 (2005)). Medtronic claims that all four

App-19
requirements were met here, and thus the federal
courts have exclusive jurisdiction over Sasso’s claims.
We disagree. But before explaining why, we briefly
review the federal proceedings related to this case.
Recall that, prior to trial, Medtronic filed a
declaratory judgment action in the United States
District Court for the Northern District of Indiana
asking the court to declare that Medtronic owed Sasso
nothing under the Screw Agreement. The District
Court addressed the issue of jurisdiction but decided
to abstain from exercising any jurisdiction it had,
given the pending action in the state court. Thus,
Medtronic’s effort to sidestep the state trial on the
Screw Agreement failed. Medtronic then appealed this
decision to the United States Court of Appeals for the
Federal Circuit, which was pending at the time the
parties filed their briefs in the present case.
Then, days before we held oral argument, the
Federal Circuit issued its decision. Warsaw
Orthopedic v. Sasso, 977 F.3d 1224 (Fed. Cir. 2020). In
that appeal, Sasso argued that there was not exclusive
federal jurisdiction because the declaratory judgment
action involved a state contract claim, or alternatively,
that if there was federal jurisdiction, the District
Court properly abstained. Although the Federal
Circuit affirmed the District Court’s decision to
abstain from exercising jurisdiction, the court first
rejected Sasso’s jurisdictional argument:
Applying the standards of precedent [i.e., the
four Gunn factors], the issues of validity and
claim scope are well-pleaded in this
declaratory complaint, are actually disputed,
are substantial to the federal system as a

App-20
whole, and the federal-state judicial balance
would not be disrupted by the district court’s
exercise of declaratory jurisdiction. Thus, this
declaratory action is within the district court’s
jurisdictional authority, and we have
jurisdiction to receive this appeal and to
determine whether the district court abused
its discretion in abstaining from exercise of
declaratory jurisdiction.
Id. at 1229. (emphasis added)
The parties disagree on the effect the above
jurisdictional analysis has on this case. Sasso claims
that the Federal Circuit’s decision stands for the
proposition that the District Court properly abstained
from exercising its jurisdiction. Medtronic, however,
argues that the decision did the opposite, i.e., that the
Federal Circuit explicitly held that there was
exclusive federal jurisdiction over the declaratory
judgment action. And because Medtronic maintains
that its declaratory judgment action is a “mirror
image” of Sasso’s complaint regarding the Screw
Agreement, Medtronic asserts that the Federal
Circuit also has exclusive jurisdiction over Sasso’s
claims relating to the Screw Agreement. We disagree
with Medtronic’s interpretation of the opinion.
A. The Federal Circuit’s Opinion is Not Res
Judicata
We first conclude that the Federal Circuit’s
opinion is not res judicata. The doctrine of res judicata,
which acts to prevent repetitious litigation of disputes
that are essentially the same, is divided into two
branches: claim preclusion and issue preclusion.
Angelopoulos v. Angelopoulos, 2 N.E.3d 688, 696 (Ind.

App-21
Ct. App. 2013), trans. denied. Common among both
branches is a judgment in a former lawsuit that bars
relitigation of the same claim or issue in a subsequent
lawsuit. See id. This requirement is lacking here.
The federal declaratory judgment action is not a
former lawsuit; it was filed years after Sasso’s
complaint for damages. And the District Court’s order
denying Medtronic’s request for declaratory judgment
was issued on January 31, 2019, after the trial court
entered judgment on the jury’s verdict in the present
case. Further, the Federal Circuit’s opinion affirming
the District Court did not issue until well over a year
after the verdict. In short, neither decision by the
federal courts—on Medtronic’s declaratory judgment
action—acts as res judicata to prevent us from
examining the issue of subject matter jurisdiction
ourselves—on Sasso’s complaint for damages.
B. Sasso’s Complaint Does Not Give Rise to
Exclusive Federal Jurisdiction
This leaves us to decide whether Sasso’s
complaint arises under federal patent law, in which
case exclusive jurisdiction lies with the federal courts.
As noted above, the U.S. Supreme Court has identified
a “special and small category” of cases in which
exclusive federal jurisdiction lies even if a claim finds
its origin in state law. Gunn, 568 U.S. at 258. To fall
within this category, the state-law claim must include
a federal issue that is (1) necessarily raised,
(2) actually disputed, (3) substantial, and (4) capable
of resolution in federal court without disrupting the
federal-state balance approved by Congress. Id.
Federal jurisdiction is proper only “[w]here all four of
these requirements are met.” Id.

App-22
Here, even assuming that that three of the Gunn
requirements are met, this case does not fit within the
“special and small” category of cases because, under
Gunn and its progeny, the federal patent issue is not
“substantial.” When determining whether a federal
issue is “substantial” in this context, the inquiry is not
whether the issue is “significant to the particular
parties in the immediate suit.” Id. at 260. Instead, the
proper focus is on “the importance of the issue to the
federal system as a whole.” Id. To assist in this
inquiry, the federal courts have identified three
factors:
First, a pure question of law is more likely to
be a substantial federal question. Empire
Healthchoice Assur., Inc. v. McVeigh, 547 U.S.
677, 700-01 (2006). Second, a question that
will control many other cases is more likely to
be a substantial federal question. Id. Third, a
question that the government has a strong
interest in litigating in a federal forum is
more likely to be a substantial federal
question. Grable [& Sons Metal Prods., Inc. v.
Darue Eng’g & Mfg., 545 U.S. 308, 315-16
(2005)].
MDS (Canada) Inc. v. Rad Source Techs., Inc., 720
F.3d 833, 842 (11th Cir. 2013).
Applying the three factors here reveals that the
federal patent-law issue is not “substantial.” First,
this is not a case that implicates a pure question of
federal-patent law: the actual issue to be determined
by the jury—whether Medtronic breached its
agreements with Sasso—was heavily fact sensitive.
Second, this is not a case where the judgment will

App-23
control many other cases; it controls only Medtronic
and Sasso. Finally, this is not a case in which the
federal government has a strong interest in litigating
the issue in federal court; this is fundamentally a
contract dispute of the sort typically heard in state
courts. And the fact that Tennessee law governs the
Screw Agreement does not alter this conclusion:
Indiana courts often have to apply the law of our sister
states under contractual choice-of-laws provisions.
We find support for this conclusion in the
“substantiality” analysis of both Gunn and Inspired
Development Group, LLC v. Inspired Products Group,
LLC, 938 F.3d 1355 (Fed. Cir. 2019).
In Gunn, the U.S. Supreme Court made three
observations in determining that a federal patentinfringement issue was not “substantial in the
relevant sense.” 568 U.S. at 260. First, regardless of
the outcome in state court, the patent at issue would
remain invalid. Id. at 261. Second, allowing the state
courts to resolve the case would not undermine the
development of a uniform body of patent law. Id. at
261-62. And third, even if the state court’s “casewithin-a-case” adjudication might have some
preclusive effect under some circumstances, the result
would be limited to the specific parties that had been
before the state court. Id. at 262-63.
Just last year, in Inspired Development Group,
the Federal Circuit applied the Gunn substantiality
analysis and reached a similar conclusion. Inspired
Dev. Grp., 938 F.3d at 1363-68. There, the court held
that a state-law action for breach of contract and
unjust enrichment did not implicate a substantial
federal issue for several reasons, including: the

App-24
patent-infringement issue was not dispositive of
whether the plaintiff was entitled to relief; the
resolution of the issue would not control other cases
because state courts cannot invalidate patents; any
state-court judgment would not have preclusive effect
outside the parties; the case did not present a novel
question of patent law of concern to the federal court
system; and, due to the “fact-bound” nature of the
patent-law issues, the government had “no direct
interest” in the outcome of the dispute. Id.
The same circumstances that led the courts in
Gunn and Inspired Development Group to find no
“substantial” federal issue are also present here.
Regardless of the outcome of Sasso’s breach-ofcontract claims, the patents Sasso assigned to
Medtronic remain valid (or invalid), and the ‘313
Patent expired in 2019. Further, the jury’s verdict in
this case does not undermine the development of a
uniform body of patent law, as it governs only the
contractual agreements between Medtronic and
Sasso. Thus, any preclusive effect is limited to these
parties. Finally, this case does not present a “novel”
question of patent law that would interest the federal
government. In short, Medtronic ignores the limited
nature of Sasso’s claim, and, just as in Gunn and
Inspired Development Group, the federal patent-law
issue here is not substantial for jurisdictional
purposes. See also Forrester Envt’l Servs., Inc. v.
Wheelabrator Techs., Inc., 715 F.3d 1329, 1335-36
(Fed. Cir. 2013).
And while we acknowledge Medtronic’s argument
to the contrary, we find its heavy reliance on Jang v.
Boston Scientific Corp., 767 F.3d 1334 (Fed. Cir. 2014)

App-25
(commonly referred to as “Jang III”) misplaced. There,
the Federal Circuit held that “the disputed federal
patent law issues presented by Jang’s well-pleaded
complaint are substantial and neither entirely
backward-looking nor hypothetical.” Id. at 1337. In
reaching this conclusion, the Federal Circuit made
three observations. First, Jang’s right to relief on his
contract claim depended “on an issue of federal patent
law—whether the stents sold by [petitioners] would
have infringed [Jang’s patents].’” Id. at 1336 (quoting
Jang v. Bos. Sci. Corp., 532 F.3d 1330 (Fed. Cir.
2008)). Second, the court noted that “[c]ontract claims
based
on
underlying
ongoing
royalty
obligations … raise the real world potential for
subsequently arising infringement suits affecting
other parties.” Id. at 1337. Finally, the court
recognized that, because Jang filed suit in federal
court based on diversity of citizenship, the case
implicated a “significant” potential for inconsistent
federal court judgments that could adversely affect
other parties facing similar infringement claims. Id. at
1338; see Inspired Dev. Grp., 938 F.3d at 1365
(recognizing that the “tension between federal courts
of appeal controlled” the Jang III court’s
substantiality analysis).
None of these same circumstances are present
here. The jury did not need to determine whether
Medtronic’s products would have infringed on Sasso’s
patents. To the contrary, Sasso had assigned the
patents at issue to Medtronic, and thus the jury had
to determine only whether the products were covered
under the royalty provisions of the agreements.
Further, this case does not involve “ongoing” royalty
obligations, and there is no evidence of potential “suits

App-26
affecting other parties.” Finally, this case has
proceeded in state court and thus does not implicate
any “significant” potential for inconsistent federal
court judgments.
But what of the Federal Circuit’s decision in the
declaratory action filed by Medtronic? The Federal
Circuit summarily concluded that Medtronic’s
“declaratory action is within the district court’s
jurisdictional authority, and we have jurisdiction to
receive this appeal.” Warsaw Orthopedic, 977 F.3d at
1229. Although, for reasons provided above, that
decision is not res judicata, Medtronic argues that it
should at least be persuasive authority regarding the
Gunn requirements. We disagree for three reasons.
First, a careful examination of the Federal
Circuit’s opinion reveals that the court’s analysis of
the Gunn requirements was, at best, cursory. Second,
and more importantly, that analysis was based on the
language of Medtronic’s complaint for declaratory
judgment, not on Sasso’s state-court complaint. And
third, the Federal Circuit ultimately concluded that
the District Court properly exercised its discretion to
abstain from exercising jurisdiction, id. at 1232, which
further weighs against a finding of exclusive federal
jurisdiction here.
In sum, even assuming that Sasso’s complaint
necessarily raised an issue of federal patent law that
was actually disputed and capable of resolution in
federal court without disrupting the federal-state
balance approved by Congress, Medtronic has failed to
show that the patent-law issue, under Gunn and its
progeny, is “substantial in the relevant sense.” 568
U.S. at 260. Thus, this case does not fit within the

App-27
small and special group of cases that lie within the
exclusive jurisdiction of the federal courts even though
they originate in state law claims. Because the trial
court and this court have subject matter jurisdiction
over Sasso’s contractual claims, we address the
remainder of Medtronic’s appellate arguments as well
as Sasso’s argument on cross-appeal.
II. Judgment as a Matter of Law

Medtronic asserts that Sasso’s claims regarding
the Screw Agreement should never have proceeded to
trial because, on this agreement, Medtronic was
entitled to judgment as a matter of law. Specifically,
Medtronic claims that the plain language of the Screw
Agreement establishes that Sasso is not entitled to
additional monies outside what Medtronic has already
paid; therefore, it argues, the trial court should have
granted its pretrial motion for summary judgment and
its trial motions for a directed verdict.
A. Standard of Review
We review a trial court’s order granting or
denying summary judgment de novo. Rapkin Grp.,
Inc. v. Cardinal Ventures, Inc., 29 N.E.3d 752, 756-57
(Ind. Ct. App. 2015) (citing Hughley v. State, 15 N.E.3d
1000, 1003 (Ind. 2014)), trans. denied. We apply the
same standard as the trial court: “[d]rawing all
reasonable inferences in favor of … the non-moving
parties, summary judgment is appropriate if the
designated evidentiary matter shows that there is no
genuine issue as to any material fact and that the
moving party is entitled to judgment as a matter of
law.” Id. Similarly, a motion for a directed verdict, also
known as judgment on the evidence, must be granted
only if there is no substantial evidence or reasonable

App-28
inference to be drawn therefrom to support an
essential element of the non-movant’s claim. Walgreen
Co. v. Hinchy, 21 N.E.3d 99, 106 (Ind. Ct. App. 2014),
aff’d on reh’g, 25 N.E.3d 748 (Ind. Ct. App. 2015),
trans. denied. We consider only the evidence most
favorable to the nonmovant along with all reasonable
inferences that may be drawn therefrom, and a motion
for judgment on the evidence should be granted only
when the evidence is not conflicting and susceptible to
only one inference, supporting judgment for the
movant. Id.
B. Medtronic Has Failed to Show that it
was Entitled to Judgment as a Matter of
Law on the Screw Agreement.
Medtronic contends that, under the terms of the
Screw Agreement, Sasso was entitled to royalties only
on products listed in Schedule B of that agreement.
The Screw Agreement provided that Medtronic would
pay Sasso for the rights to his “Invention” and
“Intellectual Property” in an amount of 2.5% of the
worldwide sales of the “Medical Device.” Ex. Vol. 14,
pp. 19-20. The term “Medical Device” was defined as
“any device, article, system, apparatus or product
including the Invention,” and was to be listed by
catalog numbers on Schedule B. Id. at 18. Schedule B,
under the heading “Medical Device Catalog Numbers,”
listed “Facet Screw Instrumentation, and A Headless
Facet Screw Fixation System.” Id. at 26. But no
catalog numbers were ever listed on Schedule B, and
it was never updated by agreement of the parties.
Nevertheless, Medtronic paid millions of dollars in
royalties to Sasso under the terms of the Screw
Agreement.

App-29
Medtronic insists that it never sold a headless
facet screw fixation system and that Sasso was
entitled to royalties only on facet screws—the only
products listed in Schedule B that it actually sold. In
support of this argument, Medtronic cites to our
earlier decision involving these parties in Sasso v.
Warsaw Orthopedic, Inc., 45 N.E.3d 835 (Ind. Ct. App.
2015) (“SEE”), trans. denied.
The agreement at issue in SEE provided that
Sasso would transfer to Medtronic a patent related to
spinal implants in exchange for monetary
compensation. 45 N.E.3d at 839. One of the provisions
of the parties’ agreement stated that SEE, LLC, a
company formed by Sasso, “warrants and represents
that it owns solely, as evidenced by a copy of an
assignment attached hereto in Schedule A, all right,
title, and interest in the Patent and the Intellectual
Property Rights.” Id. at 837. However, there was no
Schedule A attached to the agreement. Id. Part of the
compensation to Sasso included a “contingency
payment in the amount of five percent (5%) of the
worldwide Net Sales of the Medical Device, if covered
by the Intellectual Property Rights, and two and onehalf percent (2½%) if the Medical Device is not covered
by the Intellectual Property Rights.” Id. The
contractual definition of “Medical Device” was to be
listed in accordance with the defendants’ catalog
numbers in an addendum to be attached to the
agreement. Id. at 837-38. But again, no such
addendum was ever created or attached to the
agreement, and thus Medtronic never paid Sasso
under this provision. Id.

App-30
Our court affirmed the grant of summary
judgment in favor of Medtronic. We concluded that the
contract was unenforceable, as a matter of law,
because it was not definite and certain. Id. at 841.
More specifically, by failing to create the addenda, the
parties rendered the agreement unenforceable for two
reasons: (1) because there was no list of Medical
Devices as defined in the agreement, there was no
basis to determine whether a breach occurred; and
(2) because there was no way of determining whether
SEE was entitled to 5% or 2.5% of anything, there was
no basis for any remedy. Id.
Here, Medtronic argues that SEE is controlling in
the sense that decision holds that the products listed
in the schedule control Medtronic’s royalty
obligations. Medtronic contends that it paid Sasso
royalties on all facet screws it sold and that, under the
terms of the Screw Agreement, both parties had an
obligation to update Schedule B as needed, but neither
did. Therefore, Medtronic maintains that, just as in
SEE, it paid Sasso all that he was due under the
agreement and was entitled to judgment as a matter
of law on this issue. We disagree.
Under Tennessee law, which governed the Screw
Agreement, modification of a contract need not be
express but may be implied from a course of conduct.
Lancaster v. Ferrell Paving, Inc., 397 S.W.3d 606, 61112 (Tenn. Ct. App. 2011). This is true even where the
contract expressly specifies that the parties may only
modify an agreement in writing. Id. at 612. Here, it is
apparent that Schedule B—included with the original
Screw Agreement—was a placeholder that was
intended by the parties to be updated with all relevant

App-31
Medtronic parts that utilized Sasso’s intellectual
property. For whatever reason, this simply did not
occur. Yet, despite no updates to Schedule B,
Medtronic continued to pay Sasso for sixteen years
under the agreement.
We agree with Sasso that the parties’ actions
demonstrate modification of the contract by a course
of conduct. The relevant inquiry before the jury was
not whether a specific part was included in Schedule
B, but which parts sold by Medtronic utilized Sasso’s
intellectual property and were therefore royalty
bearing. Accordingly, because the Screw Agreement
was modified by the conduct of the parties, the trial
court properly rejected Medtronic’s arguments that it
had already paid Sasso all that he was due under the
terms of the agreement.
III. Exclusion of Evidence of Patent Invalidity
Medtronic next argues that the trial court abused
its discretion by excluding evidence that, subsequent
to Sasso’s filing suit, the USPTO declared certain
claims of the ‘313 Patent invalid.
A. Standard of Review
Decisions regarding the admissibility of evidence
are entrusted to the sound discretion of the trial court.
State Farm Mut. Auto. Ins. Co. v. Earl, 33 N.E.3d 337,
340 (Ind. 2015). On appeal, we review the trial court’s
evidentiary ruling for an abuse of that discretion. Id.
“An abuse of discretion occurs if the trial court’s
decision is clearly erroneous and against the logic and
effect of the facts and circumstances before the court
or if its decision is without reason or is based upon
impermissible considerations.” Arlton v. Schraut, 936
N.E.2d 831, 836 (Ind. Ct. App. 2010), trans. denied.

App-32
B. The Trial Court Did Not Abuse its
Discretion by Excluding Evidence of the
Patent-claim Invalidity.
Medtronic argues that Sasso’s claim for breach of
contract on the Screw Agreement is dependent upon
the validity of the ‘313 Patent. Thus, Medtronic
asserts that evidence establishing that some of the
patent’s claims were later declared invalid was not
only relevant, but potentially dispositive. Although
Medtronic’s arguments have some facial appeal, a
closer examination of the facts reveals that the trial
court’s decision to exclude this evidence was not an
abuse of its discretion.
The timeline below includes the relevant actions
related to validity of the ‘313 Patent:
May 1, 2018: Medtronic files a request with
the USPTO to reexamine certain claims of the
‘313 Patent.
June 29, 2018: the USPTO issues a nonfinal
office action rejecting claims 26, 30, 31, and
34 of the ‘313 Patent.
October 29, 2018: the USPTO issues a final
office action rejecting claims 26 and 34.
January 4, 2019: the USPTO issues a
reexamination certificate cancelling claims
26 through 34 of the ‘313 Patent.
Medtronic maintains that it should have been
permitted to present evidence to the jury regarding
the USPTO’s reexamination decision, noting that
invalid patent claims are deemed cancelled ab initio.
See ePlus, Inc. v. Lawson Software, Inc., 789 F.3d
1349, 1358 (Fed. Cir. 2015). In Medtronic’s view, the

App-33
invalidity of the patent claims was relevant evidence
that should have been admitted. We disagree.
A patent licensee must pay royalties until the date
it first challenges validity. Studiengesellschaft Kohle,
M.B.H. v. Shell Oil Co., 112 F.3d 1561, 1566-68 (Fed.
Cir. 1997). This is to “prevent the injustice of allowing
[a licensee] to exploit the protection of the contract and
patent rights and then later to abandon conveniently
its obligations under those same rights.” Id. at 1568.
Here, Sasso claimed he was owed royalties through
December 31, 2017—about six months before
Medtronic challenged validity. As noted in the
timeline above, Medtronic did not challenge validity of
the ‘313 Patent until May 1, 2018, and the USPTO did
not officially cancel any of the patent’s claims until
after the jury trial in this case. While we acknowledge
that Medtronic is technically an assignee, not a
licensee, the same logic prevails. Indeed, it would be
fundamentally unfair to permit Medtronic to exploit
the protections of the ‘313 Patent vis-à-vis its
competitors,
then
conveniently
abandon
its
obligations under these rights vis-à-vis Sasso.
In short, Medtronic, as an assignee, owed
royalties on the ‘313 Patent until the date it first
challenged validity, which was not until 2018—well
after the date to which Sasso claimed royalties. Thus,
evidence regarding validity was not relevant to the
royalties sought by Sasso. Accordingly, the trial court
did not abuse its discretion by excluding evidence that
Medtronic, after taking advantage of the protections
of the ‘313 Patent for years, subsequently and

App-34
successfully challenged the validity of the operative
claims of this patent. 16
IV. Duration of the Screw Agreement
Medtronic next argues that the Screw Agreement
terminated seven years from the date of first sale of
any medical device covered by that agreement. As this
requires us to interpret the contract, our review is de
novo. Harrison v. Thomas, 761 N.E.2d 816, 818 (Ind.
2002).
Section 4(B) of the Screw Agreement provided
that Medtronic would pay to Sasso:
A contingency payment in the amount of two
and one-half percent (2-½%) of the worldwide
Net Sales of the Medical Device .… The
contingency payment is payable to Dr. Sasso
until expiration of the last to expire of the
patent(s) included in the Intellectual
Property Rights, or seven (7) years from the
Date of First Sale of the Medical Device, if no
patent(s) issue .…

We also disagree with Medtronic’s argument that Sasso
opened the door to issues of patent invalidity by conceding that
the claims of the ‘313 Patent were broad. Sasso indeed
acknowledged that the claims of the patent were broad, but the
breadth of those claims benefitted Medtronic for years. And
again, for purposes of Sasso’s breach-of-contract claim, the patent
was valid because Medtronic did not challenge the patent until
2018, and Sasso claimed damages only through the end of 2017.
We further disagree with Medtronic that Sasso’s counsel misled
the jury by stating that the ‘313 Patent was in force. Counsel’s
statement was true with regard to Sasso’s claim of royalties
through 2017.
16

App-35
Ex. Vol. 14, p. 20. And Section 7, titled “Term of the
Agreement,” provided in relevant part:
Unless sooner terminated, this Agreement
shall expire upon the last to expire of the
patents included in Intellectual Property
Rights, or if no patent application(s) issue into
a patent having valid claim coverage of the
Medical Device, then seven (7) years from the
Date of First Sale of the Medical Device.
[Medtronic]
is
free
to
continue
manufacturing, marketing and selling
Medical Device(s) after expiration of this
Agreement without further payment to Dr.
Sasso.
Id. at 21 (emphasis added).
The language of these sections reveal that the
parties intended for the contract to last for either
(1) seven years from the date of the first sale of a
covered medical device or (2) for the life of the patent.
Medtronic claims Section 7 controls and that, under
its language, life-of-patent royalties were dependent
on the validity of the patent claims. Because
Medtronic eventually petitioned the USPTO to
invalidate the operative claims of the ‘313 Patent,
Medtronic asserts that it owed Sasso royalties for only
seven years from the date of the first sale of a medical
device incorporating his intellectual property. We
disagree for several reasons.
Even if we were to agree with Medtronic that
Section 7 controls, we would disagree with Medtronic’s
interpretation of that section. Under Section 7, the
Screw Agreement was to expire on “the last to expire
of the patents included in Intellectual Property

App-36
Rights, or if no patent application(s) issue into a patent
having valid claim coverage of the Medical Device,
then seven (7) years from the Date of First Sale of the
Medical Device.” Ex. Vol. 14, p. 21 (emphasis added).
The first clause of this sentence—as does the similar
language in Section 4(B)—states that the agreement
will expire when the last patent included in the
Intellectual Property expires. And because the ‘313
Patent did not expire until 2019, the agreement did
not expire until that date.
Yet, Medtronic insists that the second clause of
Section 7 controls: the agreement lasts for only seven
years from the date of first sale because “no patent
application(s) issue into a patent having valid claim
coverage of the Medical Device[.]” Id. Medtronic
argues that, because of the USPTO reexamination, a
patent did not issue having valid claim coverage of the
medical device. Despite the USPTO’s later action
invalidating the operative claims of the ‘313 Patent,
Medtronic ignores two key facts: (1) the ‘313 Patent
did issue; and (2) the ‘313 Patent had valid claim
coverage from 2001 to January 4, 2019, when the
USPTO’s issued the reexamination certification
canceling certain claims. Again, Medtronic would have
us interpret the Screw Agreement in such a way as to
permit them to benefit from the patent coverage for
over a decade, then allow them to retroactively
invalidate the patent claims to limit their obligation to
pay to seven years. We disagree with Medtronic’s
interpretation of the contract in this manner.
Moreover, if we were to agree with Medtronic’s
interpretation of the Screw Agreement, portions of
Section 4(B) would be rendered meaningless. That

App-37
section provided that Medtronic would pay royalties to
Sasso for the life of the patent, without reference to
the validity of any patent claims. To read Section 7 to
make the payments contingent upon a valid patent
would effectively re-write Section 4(B) to include a
restriction that it simply does not contain. Such an
interpretation would run counter to the well-settled
principle that “[a]ll provisions of the contract should
be construed in harmony with each other to promote
consistency and avoid repugnancy among the various
contract provisions.” Adkins v. Bluegrass Ests., Inc.,
360 S.W.3d 404, 411 (Tenn. Ct. App. 2011).
At most, the potentially conflicting language in
Section 4(B) and Section 7 render the contract
provisions regarding duration of the agreement
ambiguous. Under Tennessee law, a provision of a
contract is ambiguous when it has an uncertain
meaning and may be reasonably understood in more
than one way. Planters Gin Co. v. Fed. Compress &
Warehouse Co., 78 S.W.3d 885, 890 (Tenn. 2002)
(citing Empress Health & Beauty Spa, Inc. v. Turner,
503 S.W.2d 188,190-191 (Tenn. 1973)). Ambiguous
language in a contract must be construed against the
drafter. Adkins, 360 S.W.3d at 412 (citing Jackson v.
Miller, 776 S.W.2d 115, 117 (Tenn. Ct. App. 1989)).
Even if we found language in Section 4(B) and
Section 7 ambiguous, we would construe the language
against Medtronic. And Medtronic’s actions
demonstrate both that it believed that it owed Sasso
royalties for the life of the patent and that the Screw
Agreement expired when the ‘313 Patent expired. As
Sasso points out, the royalty provision of the
superseded original agreement between the parties

App-38
tied royalties to the validity of the patent, but the
royalty provision of the Screw Agreement did not.
Moreover, Medtronic continued to pay Sasso royalties
(albeit at a lower amount that he believed he was due)
well past seven years from the date of first sale. For
all of these reasons, the trial court did not err by
concluding that Medtronic owed Sasso royalties for
the life of the ‘313 Patent.
V. Sufficient Evidence of Damages
Medtronic also asserts that the damages the jury
awarded on the Screw Agreement were not supported
by the evidence. We employ an extremely deferential
standard when reviewing a jury’s damage award:
A jury determination of damages is entitled
to great deference when challenged on
appeal. Because damages are particularly a
jury determination, appellate courts will not
substitute their idea of a proper damage
award for that of the jury. Instead, the court
will look only to the evidence and inferences
therefrom that support the jury’s verdict. We
will not deem a verdict to be the result of
improper considerations unless it cannot be
explained on any other reasonable ground.
Thus, if there is any evidence in the record
that supports the amount of the award, even
if it is variable or conflicting, the award will
not be disturbed. In addition, our inability to
look into the minds of the jurors is, to a large
extent, the reason behind the rule that we
will not reverse if the award falls within the
bounds of the evidence. We will vacate an
award of damages only when it is not

App-39
rationally related and so great as to clearly
indicate that the jury was motivated by
prejudice, passion, partiality, corruption, or
that it considered an improper element.
State Farm Fire & Cas. Co. v. Radcliff, 987 N.E.2d
121, 151-52 (Ind. Ct. App. 2013), trans. denied
(cleaned up). As our supreme court recently reiterated,
we will not reverse if the damage award is within the
scope of the evidence. Int’l Bus. Machs. Corp. v. State,
138 N.E.3d 255, 258 (Ind. 2019). “When reviewing the
adequacy of a damages award in a breach of contract
action, we do not reweigh evidence or judge witness
credibility, and will consider only the evidence
favorable to the award.” Farah, LLC v. Architura
Corp., 952 N.E.2d 328, 337 (Ind. Ct. App. 2011). Still,
the award cannot be based on speculation, conjecture,
or surmise; it must be supported by probative
evidence. Id.
Medtronic raises two sufficiency arguments
relating to damages awarded for breach of the Screw
Agreement. Neither argument is persuasive.
First, Medtronic contends that Sasso failed to
prove that he was owed any life-of-patent royalties
because they were due only if there was “valid claim
coverage of the Medical Device,” as set forth in Section
7. But the royalties were governed by Section 4(B), not
Section 7. And, as noted above, Section 4(B) succinctly
provided that Sasso would be paid 2.5% of the
worldwide net sales of the Medical Device. There is no
requirement that the Medical Device be covered by a
valid claim of an issued patent before royalties would
be paid. We therefore reject Medtronic’s claim that
Sasso had to prove that his royalties were dependent

App-40
upon whether the medical device(s) sold were covered
by a valid patent claim. 17
Second, Medtronic claims that there was
insufficient evidence to support the jury’s award.
Medtronic acknowledges that Sasso’s expert witness,
Mike Pellegrino, testified that Sasso’s damages for
breach of the Screw Agreement were $79,400,000; but
Medtronic claims that this figure is “wildly inflated”
and based on a flawed methodology. 18 Appellants’ Br.
Medtronic’s claim that it had to sell all of the medical devices
as a “kit” before it owed Sasso royalties is also unavailing.
Medtronic argues that “[w]here a patent claim requires multiple
components, a product is not covered by the claim unless it
includes all the components.” Appellant’s Br. p. 50 (emphasis in
original). Medtronic insists that it never made or sold the five
instruments of claim 26 or the six instruments required by claim
34 of the ‘313 Patent together as a “kit.” Medtronic tacitly admits
that it sold the instruments but claims that it cannot be held
responsible for how the surgeons used these instruments. In
other words, Medtronic admits that it sold parts A, B, and C, but
claims that it did not owe royalties to Sasso unless it sold parts
A, B, and C together as single kit. The jury, however, heard
evidence that Medtronic did sell such a “kit.” Tr. Vol. 3, pp. 20204. Regardless, Medtronic’s entire argument is based on the false
premise that the instruments at issue had to be covered by a valid
claim before royalties were owed—Section 4(B) imposes no such
requirement.
17

Medtronic made no contemporaneous objection to
Pellegrino’s testimony. Accordingly, to the extent that
Medtronic’s argument is based on what it perceives to be
problems with Pellegrino’s methodology, this argument is
waived. See Radcliff, 987 N.E.2d at 153 (noting that a party must
object to evidence when it is offered into the record and that the
failure to timely object waives the party’s ability on appeal to
argue that the admission of the evidence was erroneous).
Although Medtronic notes that it unsuccessfully attempted to
exclude Pellegrino’s testimony at a Daubert hearing, this does not
18

App-41
p. 53. Medtronic thus claims that Pellegrino’s
testimony was insufficient to support the verdict.
Under our highly deferential standard of review, this
argument fails as the award is supported by probative
evidence.
The Screw Agreement defined Sasso’s “Invention”
to include any “product, method or system relating to
a facet screw instrumentation.” Ex. Vol. 14, p. 17.
Thus, the royalties on the “Medical Device(s)” sold did
not depend only on how Medtronic sold the
instruments but also how they were used, i.e., the
method or system used. And the royalty-bearing
medical devices included screws and cages when
implanted using Sasso’s method or system—just as
Medtronic indicated in 2002 shortly after the Screw
Agreement was executed. Ex. Vol. 15, pp. 91-92.
Additionally,
Robert
Compton—Medtronic’s
former president and chief operations officer—
testified that Sasso’s work on the project and his
assistance to Medtronic, i.e., “Intellectual Property
Rights,” was worth 2.5% of the net sales of the medical
products even without patent protection. See Tr. Vol.
6 at 73-75; Ex. Vol. 14 at 18-20. Still, Pellegrino
testified that the royalty-bearing products were
implanted using a five-instrument kit as required by
claim 26 of the ‘313 Patent. Tr. Vol. 11, pp. 132-33. And
Sasso testified that Medtronic’s own manuals for the
products advertised his screw delivery system. Id. at
157.
preserve any evidentiary error for purposes of appellate review.
See id. (noting that pretrial motions do not preserve error and the
party opposing the evidence must still object at trial).

App-42
In short, the jury heard evidence from several
witnesses whose testimony established that
Medtronic sold numerous instruments to be used in
the minimally invasive spinal surgery technique
invented by Sasso. And Sasso’s expert testified,
without objection, that 2.5% of the net sales of these
products was worth almost $80,000,000. The jury
accepted this testimony and awarded Sasso just over
$79,000,000 in damages. Thus, the damage award was
within the scope of the evidence. Medtronic’s
arguments to the contrary are little more than a
request that we reweigh the evidence and come to a
contrary conclusion, which we may not do.
VI. Sufficient Evidence of Vertex Damages
Lastly, Medtronic argues that there was
insufficient evidence to support the jury’s award of
damages on the Vertex Agreement. 19 We reiterate
that we will not reverse a jury’s damages award if it is
within the scope of the evidence, Int’l Bus. Machs.
Corp., 138 N.E.3d at 258, nor will we reweigh evidence
or judge witness credibility, Farah, 952 N.E.2d at 337.
Medtronic contends that Sasso was improperly
awarded royalties on four patents not listed in the
Vertex Agreement. Under the terms of the Vertex
Agreement, Sasso was entitled to life-of-patent
royalties only if “the Medical Device is covered by a
valid claim of an issued U.S. patent arising out of the
Intellectual Property Rights[.]” Ex. Vol. 14, p. 7. The
19 Medtronic also argues that Sasso’s claims for relief under the
Vertex Agreement fall within the exclusive jurisdiction of the
federal courts. For the same reasons as explained above, we
conclude that the federal courts do not have exclusive jurisdiction
over this contractual dispute.

App-43
agreement defined “Intellectual Property Rights” as
the patent application that issued as Patent ‘491 as
well as any patents “issuing therefrom or claiming
priority thereto,” “any and all continuations,
continuation-in-part,
divisionals,
reissues
or
reexaminations based thereon or claiming priority
thereto,” and “any and all know-how, technology and
any other intellectual property right with respect to
the Invention.” 20 Id. at 5.
Based on this language, Medtronic argues that no
reasonable jury could find that the Vertex Agreement
extended beyond the life of any patent unrelated to the
‘491 Patent. Yet Sasso was awarded life-of-patent
royalties on four additional patents for which he was
not the named inventor (the ‘621, ‘277, ‘359, and ‘714
Patents). Medtronic therefore claims that Sasso could
not assign any rights in these patents to Medtronic or
demand royalties for Medtronic’s use of patents he did
not own. Medtronic asserts that these patents neither
issued from the ‘491 Patent nor are they related to the
‘491 Patent. In our opinion, that claim fails.
As Sasso notes, the Vertex Agreement does not
require that he be the named inventor on any patent.
Instead, the contractual language requires only that a
patent issue arising out of Sasso’s intellectual
A listing of all Intellectual Property Rights was contained in
Exhibit A which was to “be updated by [Medtronic] from time to
time (at least yearly) as additional Intellectual Property Rights
are added to the Agreement.” Ex. Vol. 14, p. 5. Exhibit A lists U.S.
Patent No. Application No. 09/6333,638, titled “Posterior
Cervical Fixation System Utilizing Multi-Axial Screws,” with a
filing date of September 15, 2000. Ex. Vol. 14 at 12. This
application issued as the ‘491 Patent. Tr. Vol. 3, p. 99.
20

App-44
property rights. Ex. Vol. 14, p. 5. And the jury was
presented with evidence that the ‘621, ‘277, 359, and
‘714 Patents arose out of Sasso’s intellectual property.
The Medtronic officer charged with negotiating the
Vertex Agreement testified that Sasso provided the
know-how embodied in the ‘621 Patent, much of which
was copied verbatim from Sasso’s ‘491 Patent. Tr. Vol.
2, p. 234. In fact, the jury was presented with
Medtronic’s written discovery responses admitting
that the ‘621 Patent covered the Vertex system, Tr.
Vol. 7, pp. 138-39, as well an internal memo stating
that Sasso was a “designing” surgeon on Patent ‘277.
Ex. Vol. 14, p. 243. Sasso also presented evidence that
claims in both Patent 359 and 714 covered the Vertex
system. A chart of his coverage opinions was admitted
without objection. Tr. Vol. 4, p. 66; Ex. Vol. 18, p. 26.
Sasso later testified consistent with these opinions.
Tr. Vol. 5, pp. 39-42. We find that this was sufficient
evidence from which the jury could reasonably
conclude that the patents on Vertex improvements
arose from Sasso’s intellectual property rights as
required by the Vertex Agreement.
Medtronic lastly argues that, despite Sasso’s
allegation to the contrary, none of the Vertex products
it sold were covered by claims 21 and 48 of the ‘491
Patent. More specifically, Medtronic maintains that it
did not make a product that included all three features
of claim 21, and that none of its products met all
specifications of claim 48. Thus, Medtronic argues that
Vertex was not covered by the ‘491 Patent and it
therefore did not owe any royalties to Sasso. We
disagree, as there was substantial evidence that the
products sold by Medtronic were covered by the ‘491
Patent. Medtronic paid royalties for seventeen

App-45
quarters, implying that it too thought that the ‘491
Patent covered its products. Further, Sasso presented
expert testimony that directly mapped products sold
by Medtronic to claims 21 and 48 of the ‘491 Patent.
Tr. Vol. 4, pp. 45-49.
In short, the jury’s award of damages on the
Vertex Agreement is supported by the evidence.
Accepting Medtronic’s contrary arguments would
require us to reweigh the evidence and come to a
contrary conclusion, which we may not do.
VII.

Sasso’s Cross Appeal

Finally, Sasso presents a cross-appeal in which he
claims that the trial court erred by granting summary
judgment in favor of Medtronic on Sasso’s claim for
punitive damages under the Vertex Agreement. Under
Tennessee law, which controls the Vertex Agreement,
punitive damages are generally not available in a
breach-of-contract case. Rogers v. Louisville Land Co.,
367 S.W.3d 196, 211n.14 (Tenn. 2012). But punitive
damages may be awarded in such a case “under
certain circumstances.” Id. Even then, an award of
punitive damages is limited to “the most egregious
cases” and is proper only where there is clear and
convincing proof that the defendant has acted either
“intentionally,
fraudulently,
maliciously,
or
recklessly.” Id. (quoting Goff v. Elmo Greer & Sons
Constr. Co., 297 S.W.3d 175, 187 (Tenn. 2009)).
Sasso, in arguing that he is entitled to punitive
damages, refers to Medtronic’s allegedly improper
behavior in other agreements between the parties.
But, as Medtronic correctly notes, the duty of good
faith does not extend beyond the terms of the contract
and cannot create additional contractual rights.

App-46
Regions Bank v. Thomas, 422 S.W.3d 550, 560 (Tenn.
Ct. App. 2013). We therefore agree with Medtronic
that its behavior under these separate, unrelated
contracts is irrelevant to the question of Medtronic’s
behavior under the Vertex Agreement.
The other evidence Sasso relies on in support of
his claim for punitive damages is the opinion of
attorney Irving Rappaport. But the trial court struck
Rappaport’s declaration from the designated
materials, concluding that it was conclusory—a
decision that Sasso does not challenge on appeal.
Sasso therefore cannot rely on this evidence on appeal.
AKJ Indus. v. Mercantile Nat. Bank, 779 N.E.2d 543,
545 (Ind. Ct. App. 2002), trans. denied. And we
disagree with Sasso that the remaining evidence was
sufficient to establish the requisite intent for punitive
damages. The record shows that both of the parties are
sophisticated and were represented by counsel. Given
the complexity of the subject matter, it is not
surprising that the parties did not agree on the issue
of which products were royalty bearing. And the fact
that there was evidence sufficient to support the jury’s
conclusion that Medtronic breached the contracts at
issue is insufficient in itself as a matter of law to
support an award for punitive damages. In short,
because Sasso has failed to show that this is one of “the
most egregious cases,” the trial court did not err in
granting summary judgment to Medtronic on Sasso’s
claim for punitive damages.
CONCLUSION
The trial court had subject matter jurisdiction
over this case, and we reject Medtronic’s argument
that jurisdiction over this matter lies exclusively in

App-47
the federal courts. We also hold that the trial court did
not err by denying Medtronic’s claim that it was
entitled to judgment as a matter of law on the Screw
Agreement inasmuch as the parties agreed to modify
the terms of this agreement to forgo inclusion of
royalty-bearing parts in Schedule B. Further, the trial
court did not abuse its discretion by excluding
evidence that, after this case was commenced,
Medtronic successfully petitioned the USPTO to
reexamine and invalidate certain claims of the ‘313
Patent. The trial court also properly rejected
Medtronic’s claim that the Screw Agreement
terminated after seven years, as opposed to being in
effect for the life of the patents at issue. We also
conclude that Sasso presented evidence sufficient to
support the jury’s award of damages under both the
Screw Agreement and the Vertex Agreement. Lastly,
we hold that the trial court did not err by granting
summary judgment in favor of Medtronic on Sasso’s
claim for punitive damages, as Sasso failed to present
any designated evidence to meet the elevated burden
of proof for such claims under Tennessee Law.
Affirmed.
Bradford, C.J. and Najam, J., concur.

App-48
Appendix B
COURT OF APPEALS OF INDIANA
________________
No. 19A-PL-378
________________
WARSAW ORTHOPEDIC, INC., et al.,
v.

Appellants/CrossAppellees-Defendants,

RICK C. SASSO, M.D.,
Appellee/CrossAppellant-Plaintiff.
________________
ORDER
________________
Filed: January 26, 2021
________________
Before: Bradford, C.J,, Najam, Mathias, JJ.
________________
Appellants, by counsel, filed Petition for
Rehearing. Appellee, by counsel, filed Response to
Petition for Rehearing. Appellee, also filed Motion for
Leave to File Supplemental Appendix.
Having reviewed the matter, the Court finds and
orders as follows:
Appellants’ Petition for Rehearing is denied.
Appellee’s Motion for Leave to File Supplemental
Appendix is denied.

App-49
Ordered this 1/26/2021.
Bradford, C.J., Najam, Mathias, JJ., concur.
For the Court,
[handwritten: signature]
Chief Judge

App-50
Appendix C
INDIANA SUPREME COURT
________________
Court of Appeals Case No. 19A-PL-378
________________
WARSAW ORTHOPEDIC, INC., et al.,
v.

Appellants,

RICK C. SASSO, M.D.,
Appellee(s).
________________
ORDER
________________
Filed: May 13, 2021
________________
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed
pursuant to Indiana Appellate Rules 56(B) and 57,
following the issuance of a decision by the Court of
Appeals. The Court has reviewed the decision of the
Court of Appeals, and the submitted record on appeal,
all briefs filed in the Court of Appeals, and all
materials filed in connection with the request to
transfer jurisdiction have been made available to the
Court for review. Each participating member has had
the opportunity to voice that Justice’s views on the
case in conference with the other Justices, and each
participating member of the Court has voted on the
petition.

App-51
Being duly advised, the Court DENIES the petition to
transfer.
Done at Indianapolis, Indiana, on 5/13/2021.
[handwritten: signature]
Loretta H. Rush
Chief Justice of Indiana
All Justices concur, except Slaughter, J., who did not
participate in the decision of this matter.

App-52
Appendix D
INDIANA MARSHALL CIRCUIT COURT
________________
No. 50C01-1806-PL-27
________________
RICK C. SASSO, M.D.,
v.

Plaintiff,

WARSAW ORTHOPEDIC, INC., et al.,
Defendants.
________________
JUDGMENT FOR PLAINTIFF
________________
Filed: November 29, 2018
________________
This matter was submitted to a jury of six persons
and three alternates from November 1, 2018, through
November 28, 2018, upon the Plaintiff’s Third
Amended
Complaint
and
the
Defendants’
Counterclaim. The Plaintiff appeared in person and by
counsel. The Defendants appeared by corporate
representative and by counsel.
The jury returned a verdict in favor of the
Plaintiff, Rick C. Sasso, M.D., on Count I of the Third
Amended Complaint (Claim for Damages Relating to
the 2001 Sasso Agreement) in the sum of
$32,657,548.00.
The jury returned a verdict in favor of the
Plaintiff, Rick C. Sasso, M.D., on Count III of the Third

App-53
Amended Complaint (Claim for Payments under
Screw Delivery System Agreements) in the sum of
$79,794,721.00.
The jury returned a verdict in favor of the
Plaintiff, Rick C. Sasso, M.D., on the Defendants’
Counterclaim for the return of monies paid to Dr.
Sasso and awarded the Defendants no damages.
IT IS THEREFORE ORDERED, and the Court
now enters a Judgment consistent with the verdicts
returned by the jury in favor of the Plaintiff, Rick C.
Sasso, M.D., and against the Defendants
(“Medtronic”) in the total sum of $112,452,269.00 and
awards the Defendants nothing on their counterclaim.
This Judgment amount of $112,452,269.00 shall
accrue interest pursuant to statute from this date of
judgment and the Defendants shall also be responsible
for payment of costs pursuant to TR 54 (D).
SO ORDERED, as of the date file-stamped on
page 1.
[handwritten: signature]
Curtis Palmer, Judge
Marshall Circuit Court

App-54
Appendix E
RELEVANT STATUTES
28 U.S.C. §1338(a)
(a) The district courts shall have original jurisdiction
of any civil action arising under any Act of Congress
relating to patents, plant variety protection,
copyrights and trademarks. No State court shall have
jurisdiction over any claim for relief arising under any
Act of Congress relating to patents, plant variety
protection, or copyrights. For purposes of this
subsection, the term “State” includes any State of the
United States, the District of Columbia, the
Commonwealth of Puerto Rico, the United States
Virgin Islands, American Samoa, Guam, and the
Northern Mariana Islands.
28 U.S.C. §1295(a)(1)
(a) The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction—
(1) of an appeal from a final decision of a district
court of the United States, the District Court of
Guam, the District Court of the Virgin Islands, or
the District Court of the Northern Mariana
Islands, in any civil action arising under, or in any
civil action in which a party has asserted a
compulsory counterclaim arising under, any Act
of Congress relating to patents or plant variety
protection;

